TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Automated Substitute for Return
                     Program Brings Some Taxpayers Into
                        Compliance; However, Program
                          Enhancements Are Needed



                                       March 23, 2010

                           Reference Number: 2010-40-033




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 2(a) = Law Enforcement Criteria


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 23, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Automated Substitute for Return Program
                             Brings Some Taxpayers Into Compliance; However, Program
                             Enhancements Are Needed (Audit # 200840026)

 This report presents the results of our review to determine the effect of the Automated Substitute
 for Return (ASFR) Program (also referred to as the Program) in the Wage and Investment (W&I)
 and Small Business/Self-Employed (SB/SE) Divisions on enforcement yield and nonfiler
 compliance and to determine whether the Program effectively processed its workload. The audit
 was included in the Treasury Inspector General for Tax Administration’s Fiscal Years (FY) 2008
 and 2009 audit plans under the major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The ASFR Program identifies taxpayers who did not file a required tax return and attempts to
 bring these taxpayers into compliance. The Internal Revenue Service (IRS) either secures an
 income tax return from these taxpayers or prepares a Substitute for Return for taxpayers with a
 proposed tax assessment based on information return data reported to the IRS combined with
 other internal data. The Program is bringing some taxpayers into compliance; however, more
 taxpayers could be contacted if Program management used available system tools.
                                The Automated Substitute for Return Program
                                  Brings Some Taxpayers Into Compliance;
                                However, Program Enhancements Are Needed



Synopsis
For FYs 2006 and 2007, the ASFR Program closed more than 1.8 million1 cases and assessed
$16.8 billion. For most of these cases, taxpayers did not respond to the attempts to contact them
for a response to the proposed tax assessments, so the Program assessed the taxes. The Program
had a positive impact on filing compliance for some taxpayers whose cases were closed in
FY 2005. There were 449,820 taxpayers filing 580,819 tax returns who were brought into
compliance with their tax return filing requirements. In addition, our analysis identified that
224,114 (50 percent) of the 449,820 taxpayers voluntarily filed 1 or more additional returns (for
tax years as far back as 1977) after the Program closed their cases. There was also some success
in collecting the tax assessed on cases closed in FY 2005. Analysis of the tax modules for the
580,819 tax returns processed showed that 284,124 (49 percent) had some type of payment or
other account activity regardless of whether the taxpayer responded or agreed.
Although the ASFR Program helps to bring some taxpayers into compliance, a substantial
percentage (32 percent) of cases that entered the Program’s inventory for FYs 2006 and 2007
were not worked. Program inventory for the 2 years was more than 2.7 million cases;
approximately 1.8 million cases (68 percent) in its inventory were worked. Available resources
limit the number of cases worked in any given year. To compensate for the limited resources
and lessen the impact of the inventory not worked on the Program, management initiated efforts
to reduce and prioritize inventory. The Program’s efforts included soft notice pilots conducted in
Calendar Years 2007 and 2008 and the use of case resolution system tools. 2
In September 2008, the IRS sent 953 soft notices to taxpayers and asked them to file through
normal filing channels. The IRS received 50 responses (a 5 percent response rate):
20 (40 percent) taxpayers filed balance due tax returns, 16 (32 percent) taxpayers filed refund
due tax returns, and 14 (28 percent) taxpayers filed zero tax due returns. Management believed
the pilot had achieved some success because nonfiler taxpayers reacted to the IRS notices, which
reduced inventory. Based on the results of the pilot, the IRS decided to modify an existing
notice with some soft notice language.
It is too soon to know if the modified notice will improve tax compliance; however,
implementing this notice could benefit the Program by allowing it to work additional cases. For
example, by applying the 5 percent response rate from the pilot to the FYs 2008 and 2009


1
  The 1.8 million includes only closed cases where the taxpayer agreed or disagreed with the assessment, filed a
return, did not respond to notices, or was found not liable. These closed cases reflect the Program’s actual processed
workload. The IRS Data Book shows 2,608,640 closed cases for the same years and includes the 1.8 million cases
previously discussed along with other cases that were terminated from the ASFR Program for reasons such as being
selected by other IRS programs or having returns filed before the first Program notice was issued.
2
  The IRS uses “soft notices” to encourage taxpayers to self-correct issues, such as nonfiling of tax returns or
underreporting of income, with minimal compliance resources expended.
                                                                                                                    2
                                 The Automated Substitute for Return Program
                                   Brings Some Taxpayers Into Compliance;
                                 However, Program Enhancements Are Needed


Program inventory of 1,651,326 cases that were not started, more than 82,566 additional cases
may have been resolved without Program involvement by taxpayers filing their tax returns in
response to the soft notices. The modified notice was originally considered for implementation
in FY 2012; however, Program Management advised us that they are unsure when it will be
implemented because it depends on the priority ranking of an ongoing Servicewide task group
studying and improving written communications to taxpayers.
The ASFR Program uses various system tools such as the Integrated Data Retrieval System, the
Integrated Data Retrieval System Decision Assistant Program (IDAP), and Desktop Integration
(now named Account Management Services) to process cases and to provide automated
assistance for case resolution. The IDAP tool can enhance case screening and case processing
and result in more efficient and accurate case identification and closures. The W&I and SB/SE
Divisions tracked IDAP tool usage and reported positive time savings per case of 13 minutes and
35 minutes, respectively. However, the W&I Division has not mandated use of the IDAP tool
because of uncompleted programming changes needed for compliance with a law designed to
make Federal agencies’ electronic and information technology accessible to people with
disabilities. The uncompleted programming changes prevent corrections and downloads by
employees who work ASFR cases.
Account Management Services controls and assigns cases to tax examiners based on their skill
levels and current workload. It eliminates manual case openings and reduces management’s time
spent monitoring inventory levels. The W&I Division reported that when Account Management
Services was implemented, it saved managers 5 to 8 hours per week. The SB/SE Division
initially did not implement it because it was not compatible with a feature in the IDAP tool and it
would present an added control for the tax examiners to close. However, management later
advised us that, as of October 1, 2009, the SB/SE Division implemented Account Management
Services.
Some cases that exceeded the 45-day period for resolution were not properly classified as
over-age inventory and management did not apply the same established time limits for all
over-age inventories to be worked and resolved. Tax examiners are allowed to assign a status
code “M” to suspend the cases when the taxpayer takes longer than 14 days to respond. In
FY 2007, not including Status “M” cases resulted in understatements of over-age inventory by
1,646 cases and audit reconsideration 3 over-age inventory by 2,970 cases. W&I Division
management made the decision to include Status “M” cases in their over-age inventory prior to
our audit and implemented this change during FY 2008. Further, in November 2009, SB/SE
Division management advised us that they have changed their position on Status “M” cases.
Beginning in FY 2010, the SB/SE Division began including Status “M” cases in its over-age
inventory.


3
    See Appendix V for a glossary of terms.
                                                                                                 3
                          The Automated Substitute for Return Program
                            Brings Some Taxpayers Into Compliance;
                          However, Program Enhancements Are Needed



Recommendations
We recommended that the Commissioners, W&I and SB/SE Divisions, coordinate with the
executive responsible for the Taxpayer Communication Task Group to ensure the modified
notice is evaluated in time to meet its originally proposed implementation date. If implemented,
the results should be assessed to determine whether they are commensurate with or exceed the
pilot results and whether the ASFR Program has achieved a corresponding benefit in its ability to
address additional inventory. The Commissioner, W&I Division, should coordinate with the
Chief Technology Officer to ensure that programming changes are completed for the IDAP tool.
In addition, the Commissioner, W&I Division, should ensure requirements are established and
implemented for consistent use of the IDAP tool by all employees and team managers who work
Program cases to enhance the accuracy and efficiency of case work and enable limited resources
to work additional Program cases.

Response
IRS management agreed with all of our recommendations. They will continue discussions with
the Office of Taxpayer Correspondence and the Modernization and Information Technology
Services organization to prioritize the timely implementation of the new soft notice.
Management will also continue to coordinate and work with the Chief Technology Officer to
ensure the technical requirements for the IDAP tool are completed and pursue mandating its use.
Management’s complete response to the draft report is included in Appendix VII.

Office of Audit Comment
While IRS management agreed with our recommendations, the implementation date for the first
corrective action indicates the programming will be delayed beyond the original implementation
date for the soft notice. The IRS stated that the Modernization and Information Technology
Services organization requires approximately 2 years for programming changes to implement the
new soft notice. We followed up with management on this issue and were provided an
explanation; however, they were unable to provide adequate justification for the time needed to
add this notice.
Also, IRS management did not agree fully with our outcome measure related to the IDAP tool.
Although they agreed in theory with our measures, they stated that more than half of the W&I
Division employees are currently using the IDAP tool so they believe the net benefit of full
implementation will be less than shown in our calculation. During our audit, we asked the IRS
for information on the number of W&I Division employees using this tool; however, the IRS was
unable to provide this information. As such, we did not estimate the future benefit over a 5-year


                                                                                                4
                           The Automated Substitute for Return Program
                             Brings Some Taxpayers Into Compliance;
                           However, Program Enhancements Are Needed


period. Even if a significant number of employees are using the tool, mandating its use for all
employees would provide a substantial future benefit.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                  5
                                    The Automated Substitute for Return Program
                                      Brings Some Taxpayers Into Compliance;
                                    However, Program Enhancements Are Needed




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Some Nonfilers Were Brought Into Compliance, but More Could Be
          Contacted if Additional Analyses and Available Tools Were Used in
          Managing the Program..................................................................................Page 3
                    Recommendation 1:........................................................Page 11

                    Recommendation 2:........................................................Page 12

          Strengthening Inventory Management Controls Could Enhance Program
          Results and Ensure Consistent Treatment of Taxpayers...............................Page 12

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measures...............................................................Page 19
          Appendix V – Glossary of Terms .................................................................Page 20
          Appendix VI – Fiscal Years 2005–2007 Small Business/Self-Employed
          Division Status “M” Cases Over 60 Days Old .............................................Page 22
          Appendix VII – Management’s Response to the Draft Report.....................Page 23
        The Automated Substitute for Return Program
          Brings Some Taxpayers Into Compliance;
        However, Program Enhancements Are Needed




               Abbreviations

ASFR     Automated Substitute for Return
FY       Fiscal Year
IDAP     IDRS Decision Assistant Program
IDRS     Integrated Data Retrieval System
IRS      Internal Revenue Service
SB/SE    Small Business/Self-Employed
W&I      Wage and Investment
                                The Automated Substitute for Return Program
                                  Brings Some Taxpayers Into Compliance;
                                However, Program Enhancements Are Needed




                                             Background

Taxpayers are required to file an income tax return if their gross income during the year exceeds
a certain amount, regardless of whether they owe any tax. The Internal Revenue Service (IRS)
will consider the taxpayer to be a possible nonfiler if it has information that indicates a taxpayer
should have filed a tax return but did not.
The Automated Substitute for Return (ASFR) Program (referred to as the Program) identifies
taxpayers who did not file a required tax return and attempts to bring them into compliance.
Through this Program, the IRS enforces filing compliance by securing valid income tax returns
from taxpayers or preparing a Substitute for Return 1 for taxpayers with a proposed tax
assessment 2 based on information return data reported to the IRS combined with other internal
data.
The Program closed more than 1.3 million nonfiler cases during Fiscal Year (FY) 2007. Cases
are closed when the taxpayer:
    •   Complies and files the delinquent return(s).
    •   Agrees with the IRS’ proposed tax assessment.
    •   Provides information that shows the taxpayer was not liable or not required to file.
    •   Disagrees with or does not respond to IRS notices, and the IRS files a Substitute for
        Return for the taxpayer and posts the proposed tax assessment to the taxpayers’ account.
The Program has an automated process that applies specific criteria, including information return
data, which is used to calculate the potential tax due. The annual information return data are
usually reported on Wage and Tax Statements (Form W-2) and U.S. Information Returns
(Form 1099 series) 3 by employers, banks, and other third parties to report wages, interest, and
dividends, as well as some payments for services rendered to self-employed individuals.
Once a case meets ASFR criteria, the Program assigns each case a priority code based on
conditions such as refunds put on hold, potential tax due, partnership income, Federal
employees, and accounts with multiple past due tax balances. The cases with the highest
priorities are worked first. 4 Taxpayers selected for the Program are issued a Proposed Individual

1
  Internal Revenue Code Section 6020(b) gives the IRS the authority to prepare and process returns for nonfiling
taxpayers.
2
  Internal Revenue Code Section 6212 authorizes the IRS to issue a Statutory Notice of Deficiency and post the
proposed tax assessment to the taxpayer’s account if the taxpayer does not respond.
3
  See Appendix V for a glossary of terms.
4
  Priority codes are 0 (highest priority) through 9 (lowest priority).
                                                                                                            Page 1
                           The Automated Substitute for Return Program
                             Brings Some Taxpayers Into Compliance;
                           However, Program Enhancements Are Needed



Income Tax Assessment (Letter 2566) informing them that the IRS has not received a tax return
for the tax year shown and advising them that within 30 days, the IRS must receive one of the
following:
   •   A signed U.S. Individual Income Tax Return (Form 1040), including all schedules and
       forms.
   •   The signed consent agreeing with the proposed tax assessment.
   •   A statement explaining why they believe they are not required to file, or other
       information they would like the IRS to consider.
   •   The taxpayer’s appeal to the proposed tax assessment.
If the IRS does not receive a response, the taxpayer is sent a statutory notice of deficiency with
the proposed tax assessment or a Notice of Deficiency (Letter 3219). The tax computed by the
IRS may be higher than what is actually owed because the IRS does not have the information on
the taxpayer’s allowable exemptions, deductions, and credits. Therefore, it is in the taxpayer’s
best interest to file the delinquent tax returns.
Although the Program is overseen by the Small Business/Self-Employed (SB/SE) Division, cases
are worked by both the Wage and Investment (W&I) Division (which services individual
taxpayers filing Forms 1040 with no accompanying Profit or Loss From Business (Schedule C),
Supplemental Income and Loss (Schedule E), Profit or Loss From Farming (Schedule F), or
Employee Business Expenses (Form 2106) and no international activity) and the SB/SE Division
(which services individual taxpayers filing Forms 1040 with Schedules C, E, F or Forms 2106).
Currently, the Program is worked in the W&I Division’s Fresno, California, and Austin, Texas,
Campuses and in the SB/SE Division’s Brookhaven, New York, Campus. In these Campuses, up
to three major functions are performed: managing accounts, pursuing taxpayer inquiries, and
processing tax returns.
This review was performed in the W&I Division’s Headquarters in Atlanta, Georgia; the W&I
Division’s Austin, Texas, Campus; and the SB/SE Division’s Brookhaven Campus in
Holtsville, New York, during the period January 2008 through November 2009. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 2
                                The Automated Substitute for Return Program
                                  Brings Some Taxpayers Into Compliance;
                                However, Program Enhancements Are Needed




                                       Results of Review

Some Nonfilers Were Brought Into Compliance, but More Could Be
Contacted if Additional Analyses and Available Tools Were Used in
Managing the Program
For FYs 2006 and 2007, the Program closed more than 1.8 million 5 cases and assessed
$16.8 billion. For most of these cases, taxpayers did not respond; therefore, the Program
assessed the tax dollars owed. In order to evaluate the Program’s results in bringing the
taxpayers it contacted into compliance, we analyzed Master File data 6 for Program cases closed
during FY 2005 and data for cases closed on the ASFR system during FYs 2006 and 2007.
Figure 1 shows the number and disposition of cases closed in FYs 2006 and 2007.
                       Figure 1: Program Results for FYs 2006 and 2007

                                            Number of           Percentage of        Potential Tax Assessments
     Type of Tax Return Closure            Cases Closed         Cases Closed                (in Billions)
    Return Filed                                321,244                17.3%                     $ 3.9
    Agreed With Assessment                        30,483                1.6%                     $ 0.2
    Taxpayer Found Not Liable                     91,040                4.9%                     $ 1.3 7
    Disagreed With Assessment                      7,143                0.4%                     $ 0.1
    No Response                               1,409,798                75.8%                     $11.3
    Total                                     1,859,708              100.0%                      $16.8
Source: IRS data extract from the Program’s system of cases closed during FYs 2006 and 2007.




5
  The 1.8 million includes only closed cases where the taxpayer agreed or disagreed with the assessment, filed a
return, did not respond to notices, or was found not liable. These closed cases reflect the Program’s actual processed
workload. The IRS Data Book shows 2,608,640 closed cases for the same years and includes the 1.8 million cases
previously discussed along with other cases that were terminated from the ASFR Program for reasons such as being
selected by other IRS programs or having returns filed before the first Program notice was issued.
6
  We obtained a Master File extract of FY 2005 closed ASFR case data because the IRS did not begin archiving
closed cases on the ASFR system until June 2005.
7
  Amount of potential tax computed by the ASFR Program. This tax was not actually assessed.
                                                                                                             Page 3
                                  The Automated Substitute for Return Program
                                    Brings Some Taxpayers Into Compliance;
                                  However, Program Enhancements Are Needed



FY 2005 Program results – filing compliance
The Program had a positive impact on filing compliance for some of its taxpayers whose cases
were closed in FY 2005. From our analysis, we determined that 449,820 taxpayers representing
580,819 tax returns were brought into compliance with their tax return filing requirements during
FY 2005 by 1 of the following methods:
      •    Filing tax returns.
      •    Agreeing with the IRS’ proposed tax assessments.
      •    Accepting the Substitute for Returns filed by the Program.
      •    Being identified as not needing to file because they were not liable for filing returns.
Analysis of additional Master File data to identify how many of the 449,820 taxpayers
voluntarily filed additional tax returns after the Program closed their cases showed that 224,114
(50 percent) filed 1 or more additional returns (for tax years as far back as 1977). 8 Figure 2
shows the data analysis results.
                Figure 2: Subsequent Returns Filed for FY 2005 Closed Cases

                      Additional                                             Total
                     Returns Filed            Number of Taxpayers        Returns Filed
                 1 to 4 Returns                         183,346              447,784
                 5 or More Returns                       40,768              238,064
                     Subtotal                           224,114              685,848
                 No Returns                             225,706                      0
                     Total                              449,820              685,848
               Source: FY 2005 data on the Individual Master File.

Payment compliance
Although the Program does not have responsibility for payment compliance, we noted some
success in collecting the taxes assessed by the Program on the cases closed in FY 2005. We
conducted a further analysis on the tax accounts for the 580,819 tax returns to determine whether
payments were being made and the current account status (e.g., fully paid, in collection, or in
installment agreement status). Figure 3 shows that 284,124 (49 percent) of the 580,819 tax
returns processed had some type of payment or other account activity regardless of whether the



8
    Data were extracted in April 2008.
                                                                                                 Page 4
                                  The Automated Substitute for Return Program
                                    Brings Some Taxpayers Into Compliance;
                                  However, Program Enhancements Are Needed



taxpayer agreed, filed a return, did not respond, or disagreed with the Substitute for Return filed
by the ASFR Program.
               Figure 3: Account Status/Taxes Paid for FY 2005 Closed Cases

                Type of                                                                    Percentage
                Closure                      Current Account Status                         of Total 9
                                Fully Paid:                                     53,854            68%

               Agreed or        Collection Status (Partial Payment
                                                                                13,922            18%
                Return          Received):
                 Filed          Installment Agreement:                           9,435            12%
                                Other:                                           2,119             3%
                                                                   Subtotal:    79,330
                                Fully Paid:                                     78,555            38%
               Disagreed        Collection Status (Partial Payment
                                                                               107,200            52%
                 or No          Received):
               Response         Installment Agreement:                          14,975             7%
                                Other:                                           4,064             2%
                                                                   Subtotal: 204,794
                                Total:                                         284,124
            Source: FY 2005 data extract of account activity on the Individual Master File as of mid-April 2008.

Although the Program helps to bring some taxpayers into compliance, a substantial percentage
(32 percent) of cases that entered its inventory for FYs 2006 and 2007 were not worked.
Program inventory for these 2 years was more than 2.7 million cases; approximately 1.8 million
cases (68 percent) in its inventory were worked. To help in assigning resources to address the
large number of nonfiler cases, the Program assigns priority codes to cases meeting ASFR
criteria. Most of the cases worked have a refund on a recent tax year that is being held to apply
to a prior year for which no tax return was filed or are accounts with information showing that a
very large tax (more than ***2(a)*******) may be due for a year for which no tax return was filed.
Figure 4 shows the inventory by priority code and the percentage of cases closed during FYs
2006 and 2007.


9
    Totals do not add up to exactly 100 percent due to rounding.


                                                                                                             Page 5
                                          The Automated Substitute for Return Program
                                            Brings Some Taxpayers Into Compliance;
                                          However, Program Enhancements Are Needed



                        Figure 4: ASFR Inventory for FYs 2006–2007 by Priority Code

                                                                                     Cases
          Priority                                                                  Meeting          Cases Percentage
           Code                              Definition                             Criteria 10      Closed  Closed
              0       ******2(a)******** 11                                            975,717 926,807            94.99%

              1         ********2(a)************
                                                                                     659,699         81,325        57.80%
                       ************************
                      Potential Balance Due of Greater Than                           380,061
             2                                                                                      379,748        99.92%
                      ****2(a)*********
              3       Potential Balance Due of *****2(a)***********                   51,255         21,956        42.84%
             4       Potential Balance Due of ******2(a)**********                    43,014         10,211        23.74%
            5-8      Potential Balance Due of *******2(a)*********                  339,879          79,073         23.27%
            9            Terminated                                                  60,588         60,588         100.00%

                      ASFR Corporate Inventory (Not Started)12                        208,402                 0         0.00%
                      TOTAL                                                         2,718,615 1,859,708             68.41%
Source: FYs 2006–2007 ASFR closed case data provided by the IRS.

  Available resources limit the number of cases worked in any given year. To compensate for the
  limited resources and lessen the impact of the inventory not worked on the Program,
  management initiated efforts to reduce and prioritize their inventory. The Program’s efforts
  included soft notice pilots conducted in Calendar Years 2007 and 2008 and the use of case
  resolution system tools.
   The results of the soft notice pilot

  The IRS uses “soft notices” to encourage taxpayers to self-correct issues, such as nonfiling of tax
  returns or underreporting of income, with minimal compliance resources expended. For
  example, a soft notice could say:
       Our records show that we have not received the following [list of] returns from you
       . . . or information has been reported to us from some of your payers and may not be

  10
     Total cases closed in FYs 2006 and 2007 plus ending inventory as of September 25, 2007.
  11
     The Priority Code 0 – Refund Hold cases are assigned the highest priority to ensure refunds are applied to other
  outstanding balances because the refund statute expiration date is typically a short time period.
  12
     Total cases in the Corporate Inventory were not broken down by Priority Code until FY 2008, so it is shown as a
  separate item to arrive at total cases meeting criteria for the Program.
                                                                                                                        Page 6
                               The Automated Substitute for Return Program
                                 Brings Some Taxpayers Into Compliance;
                               However, Program Enhancements Are Needed



     all-inclusive, please be sure to report all of your income when filing your tax return. We
     request you file your return immediately and pay in full any taxes due.
In contrast, the language in the Program letters informs taxpayers that the IRS has not received a
tax return for the tax year shown; therefore, it has computed the tax, penalties, and interest based
on reported income. The taxpayer has 30 days to file and sign a completed tax return or consent
to the tax assessment in the letter. If he or she does not respond within 30 days, he or she will
receive a notice of deficiency letter showing the tax assessed.
In September 2007, Program management conducted a soft notice initiative with a focus on
sending notices to taxpayers with lower priority cases that were not worked as part of the current
workload; specifically, taxpayers with cases in priority codes 6 through 9. Management stated
that the initial response from the initiative was very low. Nonetheless, they believed that the low
response rate might not have been accurate because the taxpayers could have responded through
the Program’s toll-free telephone line. In September 2008, Program management conducted
another soft notice pilot to evaluate the effectiveness of sending a soft notice to taxpayers with
delinquent tax returns to direct them to file through the IRS’ normal filing channels instead of
sending the taxpayer a 30-day Proposed Individual Income Tax Assessment letter requiring a
response to the Program. Letters were sent to 953 randomly selected taxpayers from its priority
codes 2 through 8 Program inventory. Management received only 50 responses. 13 Of the 50
responses, 20 (40 percent) taxpayers filed balance due tax returns, 16 (32 percent) taxpayers filed
refund due tax returns, and 14 (28 percent) taxpayers filed zero tax due returns. Management
conducted a cost analysis of implementing the soft notice compared to continuing to work the
cases in the Program and send the 30-day assessment letter. They determined that it cost $28.73
per case to send the soft notice and work the case when the taxpayer responds by sending a tax
return. In addition, it cost $33.69 for the Program to send the letter and work the case when the
taxpayer responds with the tax return.
Management believed the pilot had achieved some success because nonfiler taxpayers reacted to
the IRS notices, which reduced inventory. Management considered whether to create a new
notice or modify an existing notice with soft language. The cost to create the new notice was not
included in the cost to send and work the notice; however, IRS management concluded that the
cost to process returns received as a result of the 30-day letter is more costly than the initial
programming for a new notice. They decided to minimize costs and modify an existing notice
with soft notice language. Program management decided that a modified notice should be sent to
taxpayers who are directly assigned to the Program after going through campus and/or field
collection efforts. At the time of the pilot, the largest number of taxpayers who were assigned
met the assessment selection criteria with a potential net tax assessment of ***2(a)**********.


13
  Program management had to suspend working its cases to conduct the random selection. Priority codes 0
through 1 were not included in the selection process because they were high priority and management decided not to
suspend working them.
                                                                                                          Page 7
                               The Automated Substitute for Return Program
                                 Brings Some Taxpayers Into Compliance;
                               However, Program Enhancements Are Needed



These taxpayers were categorized in the priority codes 2 through 8 depending upon how many
tax returns they had not filed but should have filed. In general, the more returns owed or unfiled,
the lower the assigned priority code number which signaled a higher priority case to be worked.
Program management decided to issue a modified notice with soft language to taxpayers who
met the net tax assessment selection criteria of *****2(a)********.
The modified notice was originally considered for implementation in FY 2012; however,
Program management advised us that they are unsure when it will be implemented because it
depends on the priority ranking of an ongoing Servicewide task group studying and improving
written communications to taxpayers.
Figure 5 shows the current Program notice process and proposed notice process with the number
of additional days taxpayers can be given to respond and/or file requested returns.
         Figure 5: Current and Proposed Notice Process for the ASFR Program

                                                                                     Proposed 2nd TDI
                                                        Current ASFR                   Notice/Letter
              Type of Notice/Letter                     Notice Timeline                  Timeline
     1st TDI Notice 14                                       42 days                       42 days
     2nd TDI Notice 15 (Modified Notice
                                                              N/A 16                       49 days
     With Soft Notice Language)
         Total Time to Respond Before
                                                             42 days                       91 days
         Addressed by the ASFR Program
     Letter 2566 (30-Day ASFR Letter)                        30 days                       30 days
     Letter 3219 (90-Day ASFR Letter)                        90 days                       90 days
         Total Potential Number of Days
                                                            162 days                      211 days
         Taxpayers Have to Respond
     Source: ASFR Program management. TDI = Taxpayer Delinquency Investigation

It is too soon to know the overall effectiveness of the modified notice on tax compliance;
however, implementing the modified notice could help the Program address additional cases by:
     •    Avoiding the need to issue ASFR notices for taxpayers who respond to the modified
          notice with the requested return.

14
   This notice will allow the taxpayer 6 weeks to respond. We multiplied 6 weeks times 7 days which equals
42 days.
15
   The 2nd notice will allow the taxpayer 6–8 weeks, an average of 7 weeks, to respond.
16
   Not applicable to this process.
                                                                                                             Page 8
                               The Automated Substitute for Return Program
                                 Brings Some Taxpayers Into Compliance;
                               However, Program Enhancements Are Needed



     •   Allowing limited Program resources who would have worked these cases to work
         additional ASFR cases.
For example, by applying the 5 percent response rate from the pilot to the FYs 2008 and 2009
Program inventory of 1,651,326 cases that were not started, more than 82,566 additional cases
may have been resolved by taxpayers filing their tax returns without Program resource
involvement.

The Program’s use of system tools to resolve cases
The Program uses the ASFR system, the Integrated Data Retrieval System (IDRS), the IDRS
Decision Assistant Program (IDAP), and Desktop Integration to process cases and to provide
automated assistance for case resolution. We found inconsistent use of these computer systems
between the W&I and SB/SE Divisions.
The IDAP tool can enhance case screening and case processing and result in more efficient and
accurate case identification and closures. The IDAP tool is used to research the taxpayer’s
account transactions on the IDRS and prompts the tax examiner with the case type. The IDAP
tool also prompts the tax examiner with reminders, questions that should be addressed, or steps
that need to be completed in order to close a case.
Since FY 2006, all SB/SE Division tax examiners have used the IDAP tool. In early FY 2008,
the W&I Division made the IDAP tool available, but all tax examiners did not use it. W&I
Division management stated that a formal request was needed for programming changes that
would adapt the IDAP tool for corrections and downloads at the W&I Division campuses
working Program cases. Once these programming changes were made, W&I Division
management indicated they planned to make the IDAP tool mandatory.
We asked both Divisions how much time they saved on average per case using the IDAP tool.
The W&I Division conducted its study during our audit, while the SB/SE Division conducted its
study in October 2005, prior to our audit. Both the W&I and SB/SE Divisions tracked IDAP tool
usage and reported positive time savings per case of 13 minutes 17 and 35 minutes, respectively. 18
Management did not provide information to indicate why the time savings was significantly
different between the W&I and SB/SE Divisions. Each Division allocates resources to work
ASFR cases differently. Tax examiners in the W&I Division split their time between ASFR
cases and one or two other programs, while in the SB/SE Division, the tax examiners work only
ASFR cases.



17
   The W&I Division reported time savings of 12 and 14 minutes for the Austin and Fresno Campuses, respectively;
an average of 13 minutes for both.
18
   The time savings were measured by the IRS and are provided for informational purposes only. We did not verify
the data provided.
                                                                                                         Page 9
                             The Automated Substitute for Return Program
                               Brings Some Taxpayers Into Compliance;
                             However, Program Enhancements Are Needed



Using the W&I Division time savings average of 13 minutes for the 84,690 W&I Division closed
cases where the taxpayer filed a return in FY 2007, 19 the time savings would have potentially
allowed tax examiners to work more than 14,600 (17 percent) additional cases during FY 2007. 20
By not using the IDAP tool program-wide, productivity gains are not realized, and fewer cases
are worked and closed.
In February 2009, W&I Division management made a formal request for programming changes;
however, this request for programming changes has not been completed because the tool was not
compliant with a law designed to make Federal agencies’ electronic and information technology
accessible to people with disabilities. The tool was scheduled for testing in June with an
expected rollout in FY 2010. This expected rollout has been further delayed because
programming has still not been completed, and there is no revised expected rollout date.
Desktop Integration is an inventory control system that is linked to various IRS computer
systems that the W&I Division implemented for the Program in March 2004. Some of the
improvements experienced by the W&I Division from the use of Desktop Integration are:
     •   The system opens the IDRS control and assigns cases to tax examiners based on their
         skill levels and current workload. It eliminates manual IDRS case openings and reduces
         management’s time spent monitoring inventory levels.
     •   The system monitors each employee’s inventory level and assigns cases as needed, which
         eliminates the need for management to provide weekly work orders for each employee.
     •   Employees have no need to maintain a manual inventory record and update it with daily
         receipts, closures, and adjustments. Inventory reports are available systemically, which
         enables managers to monitor employees’ inventories at anytime instead of using weekly
         Program reports.
     •   The system histories are input to the taxpayers’ record based on actions taken,
         eliminating the need for a written history sheet. The history function enables other IRS
         functions, such as the Taxpayer Advocate Service, Examination function, and others, to
         access the history to understand how the Program case was worked instead of ordering
         the hard copy case file, which may take days to receive.
     •   It provides an extra control for employees by creating a case history and systemically
         closing the IDRS control.




19
  The data were taken from the W&I Division ASFR Cumulative Management Information Report for FY 2007.
20
  The 84,690 cases x 13 minutes [time savings] / 75 minutes [on average to process a return case]
= 14,680 cases. 14,680 cases / 84,690 cases = 17 percent.
                                                                                                 Page 10
                               The Automated Substitute for Return Program
                                 Brings Some Taxpayers Into Compliance;
                               However, Program Enhancements Are Needed



The W&I Division reported that when Desktop Integration was implemented, it saved managers
5 to 8 hours per week, which equates to an additional 13 to 20 percent 21 more time in a work
week. Prior to October 1, 2009, use of Desktop Integration, now named Account Management
Services, was only mandatory in the W&I Division. The SB/SE Division initially reported that it
determined Account Management Services to be counter-productive because it was not
compatible with a feature in the IDAP tool and it would present an added control for the tax
examiners to close. In the SB/SE Division, the managers and team leads manually determined
case assignments and then issued them to employees on the IDRS. Management advised us that,
as of October 1, 2009, the SB/SE Division implemented Account Management Services for its
ASFR Program.
The Program’s objective is to bring the taxpayers it contacts into compliance with their tax
obligations. Program strategies and system tools should be designed to assist the Program in
meeting its objective, if appropriately and consistently applied. When available data are
insufficient to make key decisions and all system tools are not fully engaged, it limits the ability
to manage the Program in order to bring taxpayers into compliance.

Recommendations
Recommendation 1: The Commissioners, W&I and SB/SE Divisions, should coordinate with
the executive responsible for the Taxpayer Communication Task Group to ensure the modified
notice is evaluated in time to meet its originally proposed implementation date. If implemented,
the results should be assessed to determine whether they are commensurate with or exceed the
pilot results and whether the Program has achieved a corresponding benefit in its ability to
address additional ASFR inventory.
        Management’s Response: IRS management agreed with this recommendation.
        They will continue discussions with the Office of Taxpayer Correspondence and
        Modernization and Information Technology Services organization to prioritize the timely
        implementation of the new soft notice. The IRS will monitor implementation of
        enhancements to income reporting on the IDRS. Management will use the enhancements
        to include taxpayer income and proposed tax information in the notice. They will also
        work with Modernization and Information Technology Services organization to develop
        reporting methods to validate the effectiveness of the new soft notice.
        Office of Audit Comment: While IRS management agreed with this
        recommendation, the implementation date for the corrective action indicates the
        programming will be delayed beyond the original implementation date for the soft notice.
        IRS management stated that the Modernization and Information Technology Services


21
  The 5 hours [saved] / 40 hours [in a work week] = 13 percent; 8 hours [saved] / 40 hours [in a work week]
= 20 percent.
                                                                                                         Page 11
                                The Automated Substitute for Return Program
                                  Brings Some Taxpayers Into Compliance;
                                However, Program Enhancements Are Needed



           organization requires approximately 2 years for programming changes to implement the
           new soft notice. We followed up with management on this issue and were provided an
           explanation; however, they were unable to provide adequate justification for the time
           needed to add this notice.
Recommendation 2: The Commissioner, W&I Division, should coordinate with the Chief
Technology Officer to ensure that programming changes are completed for the IDAP tool. In
addition, the Commissioner should ensure requirements are established and implemented for
consistent use of the IDAP tool by all employees and team managers who work Program cases to
enhance the accuracy and efficiency of case work and enable limited resources to work
additional Program cases.
           Management’s Response: IRS management agreed with this recommendation.
           They will continue to coordinate with the Chief Technology Officer to ensure support,
           prioritization, selection, and release of the IDRS IDAP tool by the new Integrated
           Automation Technologies team. Once the IDAP tool conforms to all technical
           requirements, they will pursue mandating its use. A task force is currently reviewing
           existing tools and tools in development for transition to the Integrated Automation
           Technologies team. Updates and support of the IDAP tool will be contingent on
           Modernization and Information Technology Services organization funding and priorities.

Strengthening Inventory Management Controls Could Enhance
Program Results and Ensure Consistent Treatment of Taxpayers
Some cases that exceeded the 45-day period for resolution were not properly classified as
over-age inventory and management did not apply the same established time limits for all
over-age cases to be worked and resolved. Therefore, management’s treatment of the two
classes of over-aged inventory resulted in the inconsistent treatment of taxpayers. Management
should ensure with its actions and management controls that it monitors performance measures
and indicators. 22 These control activities ensure completeness and accuracy of information used
to meet management objectives.
A case is considered over-age if more than 45 days have passed from the date that the IRS
received the return and the Program has not closed the case. Over-age Program cases are
considered a priority to complete once they have exceeded the 45-day period for resolution.
When a taxpayer responds to a request for information such as missing schedules but the
information provided is not sufficient, tax examiners should make up to three attempts (two
telephone calls and one letter) to contact the taxpayer in order to obtain the additional
information. Tax examiners may assign a status code “M” to suspend the cases when the
taxpayer takes longer than 14 days to respond. Program management decided that Status “M”

22
     Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                                     Page 12
                                  The Automated Substitute for Return Program
                                    Brings Some Taxpayers Into Compliance;
                                  However, Program Enhancements Are Needed



cases which are more than 45 days old should not be counted in determining the volume of
over-age cases because the taxpayer caused the delay.
We analyzed the IRS’ calculations of the number and percentage of over-age cases using the
available data for FYs 2005 through 2007. We found that none of the Status “M” cases more
than 45 days old were included in the Program’s over-age calculations. In FY 2007, not
including Status “M” cases resulted in the understatement of over-age inventory by 1,646 cases
and the understatement of audit reconsideration over-age inventory by 2,970 cases. 23 Figure 6
shows W&I and SB/SE Divisions’ combined understatements for FYs 2005 through 2007.
              Figure 6: FYs 2005–2007 Analysis of Program Over-Age Inventory

               Over-Age                                                                                Percent-
                Cases        All                   Over-Age                                               age
     Fiscal    (Non-Status Over-Age Percentage Reconsiderations   All Over-Age                         Under-
     Year         “M”)      Cases   Understated (Non-Status “M”) Reconsiderations                       stated
      2005     1,536            4,106          63%                2,094                3,178              34%
      2006     1,302            3,650          64%                  541                  954              43%
      2007        530           2,176          76%                  904                3,874              77%
 Source: IRS over-age inventory for FYs 2005–2007.

W&I Division management made the decision to include Status “M” cases in their over-age
inventory prior to our audit and implemented this change during FY 2008. SB/SE Division
management maintained that they could not control when the taxpayer would respond; therefore,
Status “M” cases were not included.
Not working the Status “M” cases unfairly allowed some taxpayers a substantial amount of
additional time before cases were closed and tax assessments were posted to their accounts. For
example, in FY 2007, SB/SE Division Status “M” case taxpayers received 62 additional days on
average beyond other cases closed and assessed within 15 days of the 45-day criteria. Moreover,
some taxpayers’ cases were over-aged more than 1,000 days. Figure 7 shows the number of
SB/SE Division Status “M” case taxpayers for the 3 fiscal years.




23
     Cases understated: Regular cases: 2,176 – 530 = 1,646 cases; Reconsideration cases: 3,874 – 904 = 2,970 cases.
                                                                                                          Page 13
                               The Automated Substitute for Return Program
                                 Brings Some Taxpayers Into Compliance;
                               However, Program Enhancements Are Needed



                            Figure 7: FYs 2005–2007 SB/SE Division
                                  Status “M” Case Taxpayers

                                 Number of Over-Age                Average Number of
                                    Status “M”                    Days Cases Were Open
               Fiscal Year          Taxpayers                        Over 60 Days 24
                    2005                    1,057                               47
                    2006                      581                               53
                    2007                      737                               62
            Source: Our analysis of IRS SB/SE Division over-age inventory for FYs 2005–2007.

For FYs 2005 through 2007, more than 660 taxpayers were not allowed the additional days
before their cases were closed and tax assessments were made to their accounts. These taxpayers
were associated with more than 1,300 cases in the SB/SE Division’s over-age Program
inventory. 25 We believe that improperly classifying and not applying established time standards
for suspended over-age Program inventory allowed poor case management practices and unfair
extensions for some taxpayers and made it more difficult to obtain case resolution and tax
assessments.
Management Action
In November 2009, SB/SE Division management advised us that they have changed their
position on Status “M” cases. Beginning in FY 2010, the SB/SE Division began including
Status “M” cases in their over-age inventory.




24
   Appendix VI shows the number of Status “M” cases for the 3 FYs aged from 61 to more than 999 days (the date
range on the ASFR system is limited to 3 digits).
25
   See Appendix IV for the methodology for computing the number of taxpayers and their over-age cases.
                                                                                                       Page 14
                          The Automated Substitute for Return Program
                            Brings Some Taxpayers Into Compliance;
                          However, Program Enhancements Are Needed



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The objective of this review was to evaluate the effect of the ASFR Program in the W&I and
SB/SE Divisions on enforcement yield and nonfiler compliance and to determine whether the
Program effectively processed its workload. To accomplish the objective, we:
I.     Gained an understanding of how ASFR cases were selected for work by the examiners
       and processed on the ASFR system. We also determined if future ASFR Program
       changes were planned.
II.    Evaluated whether all ASFR cases were included in the ASFR system. We determined
       the criteria for case inclusion and obtained a list of the ASFR cases located on the Master
       File for FY 2005. In conjunction with our Office of Information Technology, we
       reviewed program codes and determined that ASFR cases on the Master File were
       actually selected and included in the ASFR database.
III.   Identified the percentage of cases considered over-age (more than 45 days) for ASFR
       cases and ASFR reconsideration cases for FYs 2005 through 2007 by requesting a list of
       over-age cases as of September 30 of 2005, 2006, and 2007 (or the closest available
       dates). We obtained an explanation from management for the reasons for the over-age
       cases.
IV.    Evaluated the overall enforcement yield for the FY 2005 closed cases where an
       assessment was made and forwarded to the Collection function. We obtained a Master
       File extract to identify payments, offsets, and credit transactions that were applied to
       assessed balances to estimate the amount of tax actually collected on the accounts
       through mid-April 2008. We divided the total amount of tax collected by the total tax
       assessments posted to these accounts, which was the collection yield. We also
       determined the percentage of taxpayers who made payments on ASFR cases closed in
       2005 (payment compliance rate).
V.     Determined whether the ASFR Program is processing its workload in a manner which
       encourages nonfiler voluntary compliance.
       A. Determined if the cases worked in FY 2005 promoted filing compliance.
       B. Used the Master File data extract of ASFR cases closed during FY 2005 and obtained
          FYs 2006 and 2007 filing information for those taxpayers who were assessed taxes by
          the Program in FY 2005 through assistance from our Office of Information
          Technology.


                                                                                          Page 15
                          The Automated Substitute for Return Program
                            Brings Some Taxpayers Into Compliance;
                          However, Program Enhancements Are Needed



       C. For the taxpayers identified, determined which taxpayers did and did not file returns
          in FYs 2006 and 2007.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Program case selection criteria and
prioritization to provide the most productive cases to work for its employees and inventory
controls to manage current and over-age case inventory. We evaluated these controls by
interviewing management, reviewing an ASFR system data extract and program codes, and
reviewing Master File data extracts of closed Program cases.




                                                                                         Page 16
                         The Automated Substitute for Return Program
                           Brings Some Taxpayers Into Compliance;
                         However, Program Enhancements Are Needed



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle Andersen, Director
Deborah Drain, Audit Manager
James O’Hara, Audit Manager
Steven Stephens, Acting Audit Manager
Lynn Ross, Lead Auditor
Pamela DeSimone, Senior Auditor
Sylvia Sloan-Copeland, Auditor
Arlene Feskanich, Senior Information Technology Specialist
James Allen, Information Technology Specialist
Judith Harrald, Information Technology Specialist
Kevin O’Gallagher, Information Technology Specialist




                                                                                    Page 17
                        The Automated Substitute for Return Program
                          Brings Some Taxpayers Into Compliance;
                        However, Program Enhancements Are Needed



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PRA:PEI




                                                                                  Page 18
                           The Automated Substitute for Return Program
                             Brings Some Taxpayers Into Compliance;
                           However, Program Enhancements Are Needed



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measures:
•   Inefficient Use of Resources – Potential; employees could have worked more than
    14,600 additional ASFR Program cases if they had used the IDAP tool (see page 3).

Methodology Used to Measure the Reported Benefits:
To determine the number of additional cases Program employees could have worked if they used
the IDAP tool, we multiplied the W&I Division time savings estimate of 13 minutes by
84,690 W&I Division closed cases where the taxpayer filed a return in FY 2007. The number of
closed cases was taken from the W&I Division ASFR Cumulative Management Information
Report for FY 2007. We divided the output by 75 minutes, which is the average time to process
a return case; it yielded 14,680 additional cases for FY 2007.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; the ASFR Program could have closed 82,566 additional cases
    from its inventory that had not been started for FYs 2008 and 2009 without using limited
    Program resources if the modified notice with soft language had been implemented (see
    page 3).

Methodology Used to Measure the Reported Benefit:
To determine the number of cases closed, we used the total FYs 2008 and 2009 inventory of
1,651,326 cases not started and multiplied by 5 percent, which is the response rate experienced
from the pilot that was conducted in September 2008. The Program could have closed
82,566 additional cases from its inventory.




                                                                                          Page 19
                           The Automated Substitute for Return Program
                             Brings Some Taxpayers Into Compliance;
                           However, Program Enhancements Are Needed



                                                                                   Appendix V

                                Glossary of Terms

Audit Reconsideration – A reevaluation of previously closed ASFR Program cases because the
taxpayer submitted additional or new information to support an issue on the Substitute for Return
tax return that may reduce the tax previously assessed.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Form 1040 – U.S. Individual Income Tax Return – Used to report individual taxpayers’
income and taxes owed to the Federal Government.
Form 1099 Series – U.S. Information Returns – A series of forms used to report dividends,
interest, rents/royalties, and other miscellaneous income.
Form 2106 – Employee Business Expense – Filed with Form 1040; used to file for certain
business expense deductions.
Form W-2 – Wage and Tax Statement – Used to report wages earned and taxes withheld.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Integrated Data Retrieval System – A computer system with the capability of retrieving and
updating stored taxpayer information; it works in conjunction with a taxpayer’s account records.
Master File – IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Priority Code 9 – The default priority code for all cases loaded to the ASFR system.
Cases are then moved to the most appropriate priority code (codes 0-8). Cases may remain or be
moved to Priority Code 9 for tax assessments of zero, cases being too old to work, or cases that
are missing income documentation. These cases are updated with the appropriate closing status
until they are terminated or removed from the ASFR system.
Refunds Put on Hold – The IRS holds refunds to ensure that they are applied to other
outstanding balances for taxpayers because the refund statute expiration date is typically a short
time period.
Schedule C (Form 1040) – Profit or Loss From Business (Sole Proprietorship) – An
individual person, conducting business as an independent contractor or as a sole proprietor, uses
this schedule to report income and expenses of the business activity.
                                                                                           Page 20
                          The Automated Substitute for Return Program
                            Brings Some Taxpayers Into Compliance;
                          However, Program Enhancements Are Needed



Schedule E (Form 1040) – Supplemental Income and Loss – Used to report supplemental
income and loss from rental activities.
Schedule F (Form 1040) – Profit or Loss From Farming – Used to report profit and loss from
farming.
Status Code “M” – Cases put in suspense due to long-term delays in receiving information from
the taxpayer.
Taxpayer Delinquency Investigation – A notice sent to a taxpayer who has not filed a tax
return.




                                                                                      Page 21
                               The Automated Substitute for Return Program
                                 Brings Some Taxpayers Into Compliance;
                               However, Program Enhancements Are Needed



                                                                                              Appendix VI

                      Fiscal Years 2005–2007
               Small Business/Self-Employed Division
                Status “M” Cases Over 60 Days Old

                    1,540
       1,600

       1,500

       1,400

       1,300

       1,200

       1,100

       1,000

         900                       798
  Cases 800

         700

         600

         500

         400                                      303

         300

         200                                                     96
                                                                               44
         100                                                                              8          12

           0
                 61-100       101-150      151-200         201-300       301-400    401-500    500+ Days
                                                        Number of Days



Source: Our analysis of IRS over-age inventory.




                                                                                                           Page 22
         The Automated Substitute for Return Program
           Brings Some Taxpayers Into Compliance;
         However, Program Enhancements Are Needed



                                                Appendix VII

Management’s Response to the Draft Report




                                                       Page 23
The Automated Substitute for Return Program
  Brings Some Taxpayers Into Compliance;
However, Program Enhancements Are Needed




                                              Page 24
The Automated Substitute for Return Program
  Brings Some Taxpayers Into Compliance;
However, Program Enhancements Are Needed




                                              Page 25
The Automated Substitute for Return Program
  Brings Some Taxpayers Into Compliance;
However, Program Enhancements Are Needed




                                              Page 26
